No. 20-382
GOVERNMENT OF GUAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT
On this Ist day of March, 2021, I, Anthony G. Lantagne, hereby certify that
this BRIEF OF AMICUS CURIAE CONSERVAMERICA INC. IN SUPPORT OF
PETITIONER was delivered, via Federal Express, Next Day Delivery, to the
Supreme Court of the United States. I further certify that I have served by First
Class mail and email this same date the required copies to the parties listed below:
Gregory George Garre
Counsel of Record
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
gregory .garre@lw .com
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ .gov
I declare under penalty of perjury that the foregoing is true
Executed ori this Ist day of March, 2021.

Lanta
egal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77
COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

